Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




      MEDICARE COMPLIANCE
     REVIEW OF RHODE ISLAND
     HOSPITAL FOR CALENDAR
     YEARS 2010 AND 2011


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Michael Armstrong
                                               Regional Inspector General

                                                      December 2012
                                                      A-01-12-00510
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997 (P.L. No. 105-33) and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999 (P.L. No. 106-113). Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

Rhode Island Hospital (the Hospital) is a 719 bed acute care facility located in Providence,
Rhode Island. Medicare paid the Hospital approximately $291 million for 23,988 inpatient and
92,749 outpatient claims for services provided to beneficiaries during calendar years (CY) 2010
and 2011 based on CMS’s National Claims History data.

Our audit covered $2,399,541 in Medicare payments to the Hospital for 233 claims that we
judgmentally selected as potentially at risk for billing errors. These 233 claims consisted of 113
inpatient and 120 outpatient claims.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 148 of the 233 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 85 claims resulting in overpayments totaling $214,059 for
CYs 2010 and 2011. Specifically, 23 inpatient claims had billing errors, resulting in net
overpayments totaling $152,238, and 62 outpatient claims had billing errors, resulting in net
overpayments totaling $61,821. Overpayments occurred primarily at the Hospital because of
human error, the inconsistent application of existing internal controls to prevent incorrect billing
of Medicare claims and the failure to fully understand the Medicare billing requirements within
the selected risk areas.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $214,059, consisting of $152,238 in overpayments for
       23 incorrectly billed inpatient claims and $61,821 in overpayments for 62 incorrectly
       billed outpatient claims, and

   •   continue to strengthen controls to ensure full compliance with Medicare requirements.

RHODE ISLAND HOSPITAL COMMENTS

In written comments on our draft report, the Hospital generally concurred with our findings.
However, although the Hospital generally concurred with our findings related to short stay
claims, it stated that “this is an area where greater CMS clarification is required as legitimate
disagreements exists.” The Hospital’s comments are included in their entirety as the Appendix.




                                                 ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ..........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Rhode Island Hospital ....................................................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Inpatient Short Stays ......................................................................................................5
          Inpatient Manufacturer Credits for Replaced Medical Devices ....................................5
          Inpatient Transfers .........................................................................................................6

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................6
          Outpatient Manufacturer Credits for Replaced Medical Devices .................................6
          Outpatient Claims Billed With Observation Services That Resulted in
            Outlier Payments .......................................................................................................7
          Outpatient Claim Billed With Evaluation and Management Services ..........................8
          Outpatient Intensity Modulated Radiation Therapy Planning Service ..........................8

      RECOMMENDATIONS .......................................................................................................8

      RHODE ISLAND HOSPITAL COMMENTS ......................................................................9

APPENDIX

      RHODE ISLAND HOSPITAL COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997 (P.L. No. 105-33) and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999 (P.L. No. 106-113). 1 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 2 All services and items within an APC
group are comparable clinically and require comparable resources. In addition to the basic
prospective payment, hospitals may be eligible for an additional payment, called an outlier
payment, when the hospital’s costs exceed certain thresholds.




1
    In 2009, SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.



                                                         1
Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis of claims. Examples of the types of claims at risk for noncompliance include the
following:

    •   inpatient short stays,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,

    •   inpatient transfers,

    •   outpatient claims billed with observation services that resulted in outlier payments,

    •   outpatient claims billed with evaluation and management (E&M) services, and

    •   outpatient claims billed with intensity modulated radiation therapy (IMRT) planning
        services.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.




                                                   2
Rhode Island Hospital

Rhode Island Hospital (the Hospital) is a 719 bed acute care facility located in Providence,
Rhode Island. Medicare paid the Hospital approximately $291 million for 23,988 inpatient and
92,749 outpatient claims for services provided to beneficiaries during calendar years (CY) 2010
and 2011 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $2,399,541 in Medicare payments to the Hospital for 233 claims that we
judgmentally selected as potentially at risk for billing errors. These 233 claims had dates of
service in CYs 2010 and 2011 and consisted of 113 inpatient and 120 outpatient claims.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements and
subjected only a limited number of claims to focused medical review to determine whether the
services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review enabled us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital during April 2012 through June 2012.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2010 and 2011;

   •    obtained information on known credits for replacement cardiac medical devices from the
        device manufacturers for CYs 2010 and 2011;
                                                 3
   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 233 claims (113 inpatient and 120 outpatient) for
       detailed review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of selected sampled claims to
       determine whether the services were billed correctly;

   •   used CMS’s Medicare contractor medical review staff to determine whether a limited
       selection of sampled claims met medical necessity requirements;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 148 of the 233 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 85 claims resulting in overpayments totaling $214,059 for
CYs 2010 and 2011. Specifically, 23 inpatient claims had billing errors, resulting in
overpayments totaling $152,238, and 62 outpatient claims had billing errors, resulting in
overpayments totaling $61,821. Overpayments occurred primarily at the Hospital because of
human error, the inconsistent application of existing internal controls to prevent incorrect billing
of Medicare claims and the failure to fully understand the Medicare billing requirements within
the selected risk areas.




                                                 4
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 23 of the 113 sampled inpatient claims that we
reviewed. These errors resulted in overpayments totaling $152,238.

Inpatient Short Stays

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 14 of the 50 sampled claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services.

The Hospital attributed the patient admission errors either to human error and the lack of clarity
in federal guidelines regarding medical necessary admission, which negatively impacted
physician training on “level of care” documentation. As a result, the Hospital received
overpayments totaling $82,685.

Inpatient Manufacturer Credits for Replaced Medical Devices

Federal regulations (42 CFR § 412.89) require reductions in the IPPS payments for the
replacement of an implanted device if (1) the device is replaced without cost to the provider, (2)
the provider receives full credit for the cost of a device, or (3) the provider receives a credit equal
to 50 percent or more of the cost of the device. The Manual, chapter 3, section 100.8, states that
to bill correctly for a replacement device that was provided with a credit, hospitals must use the
combination of condition code 49 or 50, along with value code “FD.”

Prudent Buyer Principle

Pursuant to 42 CFR § 413.9, “All payments to providers of services must be based on the
reasonable cost of services ....” The CMS Provider Reimbursement Manual, part I, section
2102.1, states:

       Implicit in the intention that actual costs be paid to the extent they are reasonable is the
       expectation that the provider seeks to minimize its costs and that its actual costs do not
       exceed what a prudent and cost conscious buyer pays for a given item or service. If costs
       are determined to exceed the level that such buyers incur, in the absence of clear evidence
       that the higher costs were unavoidable, the excess costs are not reimbursable under the
       program.

Section 2103 of the Provider Reimbursement Manual states that Medicare providers are expected
to pursue free replacements or reduced charges under warranties. Section 2103(C)(4) provides
the following example:

       Provider B purchases cardiac pacemakers or their components for use in replacing
       malfunctioning or obsolete equipment, without asking the supplier/manufacturer for full
                                                  5
       or partial credits available under the terms of the warranty covering the replaced
       equipment. The credits or payments that could have been obtained must be reflected as a
       reduction of the cost of the equipment.

For 6 of the 14 sampled claims, the Hospital received reportable credits for replaced
devices but did not adjust its claims with the proper value code (4 claims) or did not
obtain credits for replaced devices that were available under the terms of the
manufacturers’ warranties (2 errors). The Hospital attributed these errors to lack of
vendor cooperation, inconsistent application of controls designed to identify, obtain, and
properly report credits from device manufacturers and miscommunication between
different departments coordinating device credits. As a result, the Hospital received
overpayments totaling $45,490.

Inpatient Transfers

Federal regulations (42 CFR § 412.4(b)) state that a discharge of a hospital inpatient is
considered to be a transfer if the patient is readmitted the same day to another hospital unless the
readmission is unrelated to the initial discharge. A discharge of a hospital inpatient is also
considered to be a transfer when the patient’s discharge is assigned to one of the qualifying
DRGs and the discharge is to a home under a written plan of care for the provision of home
health services from a home health agency and those services begin within 3 days after the date
of discharge (42 CFR § 412.4(c)). A hospital that transfers an inpatient under the above
circumstances is paid a graduated per diem rate for each day of the patient’s stay in that hospital,
not to exceed the full DRG payment that would have been paid if the patient had been discharged
to another setting (42 CFR § 412.4(f)).

For three of the four sampled claims, the Hospital incorrectly billed Medicare for patient
discharges that should have been billed as transfers to other facilities. For these claims, the
Hospital should have coded the discharge status as a transfer to another facility. The Hospital
stated that two of these errors occurred because the coding staff did not identify the disposition
status information in the discharge plans and physician orders. For the remaining error, the
Hospital stated that the patient decided to seek alternative health care services at another facility
without the Hospital’s knowledge. As a result, the Hospital received overpayments totaling
$24,063.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 62 of 120 sampled outpatient claims, which resulted
in overpayments totaling $61,821.

Outpatient Manufacturer Credits for Replaced Medical Devices

Federal regulations (42 CFR § 419.45) require a reduction in the outpatient prospective payment
system payment for the replacement of an implanted device if (1) the device is replaced without
cost to the provider or the beneficiary, (2) the provider receives full credit for the cost of the



                                                  6
replaced device, or (3) the provider receives partial credit equal to or greater than 50 percent of
the cost of the replacement device.

Billing Requirements for Medical Device Credits

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, section
61.3, explains how a provider should report no-cost and reduced-cost devices under the OPPS.
For services furnished on or after January 1, 2007, CMS requires the provider to report the
modifier “FB” and reduced charges on a claim that includes a procedure code for the insertion of
a replacement device if the provider incurs no cost or receives full credit for the replaced device.
If the provider receives a replacement device without cost from the manufacturer, the provider
must report a charge of no more than $1 for the device.

Prudent Buyer Principle

Pursuant to 42 CFR § 413.9, “All payments to providers of services must be based on the
reasonable cost of services ....” The CMS Provider Reimbursement Manual, part I, section
2102.1, states:

       Implicit in the intention that actual costs be paid to the extent they are reasonable is the
       expectation that the provider seeks to minimize its costs and that its actual costs do not
       exceed what a prudent and cost conscious buyer pays for a given item or service. If costs
       are determined to exceed the level that such buyers incur, in the absence of clear evidence
       that the higher costs were unavoidable, the excess costs are not reimbursable under the
       program.

Section 2103 of the Provider Reimbursement Manual states that Medicare providers are expected
to pursue free replacements or reduced charges under warranties.

For 5 of the 13 sampled claims, the Hospital received reportable credits for replaced devices but
did not properly report the “FB” modifier or reduced charges on the claims (4 errors) or did not
obtain credits for replaced devices that were available under the terms of the manufacturer’s
warranty (1 error). The Hospital stated that these errors occurred because of human error, the
failure of the vendors to timely and appropriately communicate some credits, inconsistent
application of controls designed to identify, obtain, and properly report credits from device
manufacturers and miscommunication between different department coordinating device credits.
As a result, the Hospital received overpayments totaling $37,400.

Outpatient Claims Billed With Observation Services That Resulted in Outlier Payments

The Manual, chapter 4, section 290.1, states: “Observation services are covered only when
provided by the order of a physician or another individual authorized by State licensure law and
hospital staff bylaws to admit patients to the hospital or to order outpatient services ….” Chapter
4, section 290.2.2, states: “Observation time begins at the clock time documented in the
patient’s medical record, which coincides with the time that observation care is initiated in
accordance with a physician’s order. Hospitals should not report, as observation care, services


                                                  7
that are part of another Part B service, such as postoperative monitoring during a standard
recovery period (e.g., 4 to 6 hours), which should be billed as recovery room services.”

For 37 of the 45 sampled claims, the Hospital incorrectly billed observation hours on claims
submitted to Medicare, resulting in incorrect outlier payments. For 21 claims, the Hospital
overstated the hours of observation because it did not allow for the normal recovery period
expected postoperatively. For 16 claims, the medical records did not contain an order for the
observation level of care. As a result, the Hospital received overpayments totaling $20,474.

Outpatient Claims Billed With Evaluation and Management Services

The Manual, chapter 12, section 30.6.6(B), states that a Medicare contractor pays for an E&M
service that is significant, separately identifiable, and above and beyond the usual preoperative
and postoperative work of the procedure.

For 3 of the 28 sampled claims, the Hospital incorrectly billed Medicare for E&M services that
were part of the usual preoperative and postoperative care associated with the procedure. The
Hospital attributed the errors to inadequate documentation of E&M services. As a result, the
Hospital received overpayments totaling $173.

Outpatient Intensity Modulated Radiation Therapy Planning Services

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.” In addition, chapter 4, section 200.3.2, requires
that certain services should not be billed when they are performed as part of developing an IMRT
plan.

For 17 of the 19 sampled claims, the Hospital incorrectly billed Medicare for services that were
performed as part of developing an IMRT plan. These errors occurred because Hospital
personnel relied on contradicting professional association guidance and thus were unaware or did
not fully understand the IMRT billing requirements, and consequently the Hospital did not have
controls in place to prevent incorrect IMRT coding. As a result, the Hospital received
overpayments totaling $3,774.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $214,059, consisting of $152,238 in overpayments for
       23 incorrectly billed inpatient claims and $61,821 in overpayments for 62 incorrectly
       billed outpatient claims, and

   •   continue to strengthen controls to ensure full compliance with Medicare requirements.




                                                 8
RHODE ISLAND HOSPITAL COMMENTS

In written comments on our draft report, the Hospital generally concurred with our findings and
recommendations. However, although the Hospital generally concurred with our findings related
to short stay claims, it stated that “this is an area where greater CMS clarification is required as
legitimate disagreements exists.” The Hospital’s comments are included in their entirety as the
Appendix.




                                                 9
APPENDIX
             APPENDIX: RHODE ISLAND HOSPITAL COMMENTS 

                                                                                  Page I of2




                                                                            Internal Aud;t and ComPI;ance
                                                                           PhysICians Office Bui,ding, Su;te 240
    November 26, 2012                                                      593 Eddy S!,eet       .
                                                                           Providence, R, 02903
    Michael J. Armstrong
                                                                           Te, 401 444· 472B
    Regional Inspector General for Audit Services                          Fax 401 444·5842
    Department of Health and Human Services                                Email TlgoeOlifspan org
    Office of Inspector General, Office of Audit Services                  Thomas P. Igoe. CPA. FHFMA
    John F. Kennedy Federal Building                                       V,ce President. and
    15 New Sudbury Street, Room 2425                                       Lifespan Compliance and Pnvaey OffIce'

    Boston, MA 02203

    Re: Report Number: A-01-12-00510

    Dear Mr. Armstrong:

Rhode Island Hospital (RIH) is in receipt of the October 25,2012 draft report provided by
the Department of Health and Human Services, Office ofInspector General (OIG) entitled
"Medicare Compliance Review of Rhode Island Hospital for Calendar Years 2010 and
2011." Prior to the issuance of this report, in separate communication RIH provided the
OIG with some suggested revisions to the report contents primarily relating to Hospital
attributions. We generally agree with the findings outlined in the report; RIH has processed
the recommended refunds and will continue to take actions to strengthen existing controls
relating to Medicare billing requirements.

RIH takes its compliance responsibilities quite·seriously. We are gratified that th;s audit,
which emphasized high risk Medicare billing vulnerabilities in complex areas found a very
low claims error rate. In our opinion, a strong system of internal controls currentlY exists.
Nevertheless, the audit identified areas in which we need to enhance our existing controls,
improve our employee training and obtain greater clarification regarding complex Medicare
billing requirements.

In response to the report's specific recommendations:

Inpatient Short Stays - RIH generally concurs with your findings relating to the 14 cases
but as we expressed to the OIG audit staff and NHIC Corp. I Medical Review staff, this is        an
area where greater CMS clarification is required as legitimate disagreement exists. We note
that since our meeting to review the inpatient short stay claims, NHIC Corp. issued on
September 6, 2012 clarifying guidance entitled "Inpatient Admission vs. Outpatient
Observation." RIH has enhanced our existing physician training program to reflect NHIC's
guidance.


I   Medicare Administration Contractor, Jurisdiction 14 AlB MAC

                                                      1


                      HELPING OUR HOSPITALS TAKE THE BEST CARE OF YOU
                                                                                    Page 2 of2


Inpatient and Outpatient Manufacturer Credits for Replaced Devices - RIH concurs
with your findings. Prior to this audit RIH had developed operational procedures to track
credits received for replacement devices. We have since enhanced these procedures to
address those areas of vulnerability detected by the OIG. The enhanced procedures
emphasize appropriate coding guidelines, hospital departmental responsibility and vendor
accountability. As stated to the OIG by other hospitals, we support federal efforts to require
medical device distributors and manufacturers to submit quarterly information, to a secure
central data repository, on those replacement devices entitled to a credit. The vendor
database would enhance hospital efficiency and increase compliance.

Inpatient Transfer - The appropriateness of discharge disposition coding is regularly
reviewed by RIH management; the three errors found related to human error and a decision
made by a patient but not communicated to RIH. The staff involved have been retrained and
efforts made to enhance the management review process.

Outlier Observation Payment Claims - RIH concurs with your findings; a new policy has
been developed and appropriate staff trained. In addition, a process has been established to
review all outlier claims containing observation charges to ensure appropriate adjustments.

Outpatient Claims With E&M Services - The physician and staff processing these three
claims received additional training relating to the use of modifier 25.

Outpatient IMRT Planning Services - Staff has been retrained on Medicare billing
guidelines relating to IMRT services. Automated procedures have been established to
suspend for review procedure claims with IMRT planning codes. Also, RIH is supporting
national efforts to obtain greater clarity regarding the applicable eMS billing guidelines.


We appreciate the support, cooperation and professionalism exhibited by the OIG audit team
who performed this examination. If you have any questions, please don't hesitate to contact
me.


Sincerely,

       / Thomas Igoe /

Thomas Igoe




                                              2

